Case 6;20-cv-00559-JDK-JDL Documents Filed 06/28/21 Page 1 of 1 PagelD#: 44

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF TEXAS
TYLER DIVISION
EDUARDO PINEDA, #27156-078

§
§

Vs.

CIVIL ACTION NO. 6:20cv559
CRIM. NO. 6:39cr39

§

UNITED STATES OF AMERICA

§

FINAL JUDGMENT
The Court having considered Movant’s case and rendered its decision by opinion issued
this same date, it is hereby ORDERED that Movant’s motion to vacate, set aside, or correct his
federal sentence pursuant to 28 U.S.C. § 2255 is DENIED, the above-styled civil action is
DISMISSED with prejudice, and Movant is DENIED a certificate of appealability sua sponte.
The Clerk of Court is instructed to close this case.
So ORDERED and SIGNED this 28th day of June, 2021.

JERt MY D/KERNODEE
UNITED STATES DISTRICT JUDGE

APP A *01

Case 6:20:cv-00559-JDK-JDL Document 7 Filed 06/28/21 Page 1 of 2 PagelD.#: 42

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF TEXAS
TYLER DIVISION
EDUARDO PINEDA, #27156-078

§
§

Vs.

CIVIL ACTION NO. 6:20cv559
CRIM. NO. 6:19cr39

§
UNITED STATES OF AMERICA

§

ORDER ADOPTING REPORT AND RECOMMENDATION
OF THE UNITED STATES MAGISTRATE JUDGE
MoVant Eduardo Pineda, a federal prisoner confined at the Beaumont Low Federal
Correctional Institution proceeding pro se, brings this motion to vacate, set aside, or correct his
federal sentence pursuant to 28 U.S.C. § 2255.

The motion was referred to United States

Magistrate Judge John D. Love for findings of fact, conclusions of law, and recommendations for
disposition of the case.
In his motion, Movant challenges his conviction for one count of manufacture and
possession with the intent to manufacture and distribute 100 or more marijuana plants as well as
aiding an abetting—by arguing that the federal proscription against marijuana is unconstitutional
because those plants were his constitutionally protected property. On June 10, 2021, Judge Love
issued a Report recommending that Movant’s section 2255 motion be denied and that the case be
dismissed with prejudice. Docket No. 5. Judge Love further recommended that Movant be denied
a certificate of appealability sua sponte.
The Court reviews the findings and conclusions of the Magistrate Judge de novo only if a
party objects within fourteen days of the Report and Recommendation. 28 U.S.C. § 636(b)(1). In
conducting a de novo review, the Court examines the entire record and makes an independent
assessment under the law. Douglass v. United Servs. Auto. Ass’n, 79 F.3d 1415, 1430 (5th Cir.

APP B-01

Case 6:20-cv-00559-JDK-JDL Document? Filed 06/28/21 Page 2 of 2 PagelD#: 43

1996) (en banc), superseded on other grounds by statute, 28 U.S.C. § 636(b)(1) (extending time
to file objections from ten days to fourteen).
Here, Movant has timely filed objections. The Court has conducted a careful de novo
review of the record and the Magistrate Judge’s proposed findings and recommendations. See 28
U.S.C. §636(b)(l) (District Judge shall “make a de novo determination of those portions of
the report or specified proposed findings or recommendations to which objection is made.”).
Upon such de novo review, the Court has determined that the Report of the United States
Magistrate Judge is correct and that Movant’s objections are without merit. Accordingly, it is
ORDERED that the Report and Recommendation of the United States Magistrate Judge
(Docket No. 5) is ADOPTED as the opinion of the Court. Movant’s objections (Docket No. 6)
are OVERRULED. Further, it is
ORDERED that.the above-styled habeas petition is DENIED and the above-styled civil .
action is DISMISSED with prejudice. Movant is also DENIED a certificate of appealability sua
sponte. Finally, it is
ORDERED that any and all motions which may be pending in this action are hereby
DENIED.
So ORDERED and SIGNED this 28th day of June, 2021.

JER^ MY D/KERNODI'E
UNITED STATES DISTRICT JUDGE

APP B•02
2

Case 6:20-cv-00559-JDK-JDL Document 5 Filed 06/10/21 Page 1 of 13 PagelD #: 23

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF TEXAS
TYLER DIVISION
EDUARDO PINEDA, #27156-078

§
§

VS.

CIVIL ACTION NO. 6:20cv559
CRIM.NO. 6:19cr39

§
UNITED STATES OF AMERICA

§

REPORT AND RECOMMENDATION
OF THE UNITED STATES MAGISTRATE JUDGE
Movant Eduardo Pineda, a federal prisoner confined at the Beaumont Low Federal
Correctional Institution proceeding pro se, brings this motion to vacate, set aside, or correct his
federal sentence pursuant to 28 U.S.C. § 2255. The motion was referred to the undersigned United
States Magistrate Judge for findings of fact, conclusions of law, and recommendations for
disposition of the case.
For reasons explained below, the Court recommends that Pineda’s section 2255 motion be
denied, the case be dismissed with prejudice, and that Pineda be denied a certificate of
appealability sua sponte.
I. Procedural History and Factual Background
On November 12, 2019, and after entering a guilty plea, Pineda was sentenced to 108
months’ imprisonment for one count of manufacture and possession with the intent to manufacture
and distribute 100 or more marijuana plants as well as aiding and abetting (Count 3). He did not
file a direct appeal. Pineda filed this section 2255 motion in October 2020, (Dkt #1), along with
an affidavit in support, (Dkt. #4).

APP' C-01

Case 6:20cv-00559-JDK-JDL Document 5 Filed 06/10/21 Page 2 of 13 PagelD #: 24

According to the factual basis submitted to the Court in. support of the guilty plea, from on
or about July 28,2015, and continuing on or about March 7,2017, in the Eastern District of Texas
and elsewhere, Pineda conspired and agreed with others to violate 21 U.S.C. § 841(a)(1),
prohibiting the knowing and intentional manufacture and distribute 100 or more marijuana plants.
The overall scope of the conspiracy involved at least 1,000 or more marijuana plants. Pineda
stipulated to the factual basis as both true and correct.
Subsequently, on June 3,2016, Pineda traveled with a co-conspirator to the Davy Crockett
National Forest in furtherance of manufacturing marijuana plants. In total, there were more than
100 marijuana plants on the property in the Davy Crockett National Forest. Pineda was involved
in a number (of marijuana grow operations throughout the Eastern District of Texas—grow
operations near CR 419 in Smith County, in the Davy Crockett National Forest, in the Sabine
National Forest, near CR 156 in Anderson County, near CR 2307 in Morris County, and near
Periwinkle Road in Upshur County.
II. Pineda’s Claims
Pineda maintains that his criminal conviction violates the Fourth and Fifth Amendments
of the United States Constitution. An overarching argument contained in his motion is his
contention that Congress cannot proscribe marijuana—:as there was no compelling reason to do
so. Specifically, he raises the following claims:
(1) There is no constitutional amendment proscribing marijuana;
(2) The historical definition of a “crime” includes a victim;
. (3) Liberty and freedom from physical restraint is a constitutional right;
(4) Marijuana is not a constitutional right; instead, it is property and acquiring property is
a constitutional right;

2

APP C-02

Case 6:20-cv-00559-JDK-JDL Document 5 Filed 06/10/21 Page 3 of 13 PagelD #: 25

(5) The operation and effect of federal prosecution in the enforcement of count 3 was the
seizure of Mr. Pineda’s person and deprivation of his constitutional right of liberty by the
bounds of prison;
(6) Marijuana does not meet all three criteria to be a controlled substance. It is safe to use
without medical supervision; and
(7) A reasonable regulated interstate commerce of this property, marijuana, does not
present a substantial threat to the rights of others, to public safety or health, requiring the
use of federal police power.
Pineda stresses that he was convicted for a political crime rather than a crime with victims.
While Pineda disclaims any claim for ineffective assistance of counsel—as he says that
ground one has not been raised of “ineffective assistance of counsel.” To the extent that he does
argue that trial counsel was ineffective, Pineda maintains that (1) “counsel believes the marijuana
laws are constitutional because marijuana is not a fundamental right”; (2) “counsel treats laws that
authorize the use of police power as a political question violating the solemn oath to the court to
uphold Amendment IV limiting police power to be reasonable”; (3) “counsel did not protect the
right of Mr. Pineda to be secure against unreasonable deprivation of his constitutional right of
liberty, freedom from physical restraint, and his right to property secured by Amendments IV &
V”; (4) “counsel believes criminal laws are not an Article III justiciable controversy ripe for
adjudication by this court under strict scrutiny standard of review”; and (5) “it is not in the best
interest for counsel to raise ground one.”
III. Legal Standards
A. Federal Habeas Corpus Proceedings
Section 2255 is “fundamentally different from a direct appeal.” United States v. Drobny,
955 F.2d 990,994 (5th Cir. 1992). Section 2255 “provides relief for a petitioner who can establish
that either (1) his sentence was imposed in violation of the Constitution or laws of the United
States, (2) the sentencing court was without jurisdiction to impose the sentence, (3) the sentence
3

AP.P 003

Case 6:20-cv-00559-JDK-JDL Document 5 Filed 06/10/21 Page 4 of 13 PagelD #: 26

was in excess of the maximum authorized by law, or (4) the sentence is subject to collateral attack.”
US. v. Seyfert, 67 F.3d 544, 546 (5th Cir. 1999) (citing United States v. Faubion, 19 F.3d 226,232
(5th Cir. 1994)).
In other words, cognizable claims within a section 2255 motion are narrow; the movant
may not present a generalized, broad attack challenging the legality of his or her conviction and,
importantly, non-constitutional claims that could have been raised on direct appeal, but were not,
may not be asserted in section 2255 proceedings—absent a showing of cause for the procedural
default and actual prejudice ensuing from the error. United States v.Shaid, 936 F.2d 228,232 (5th
. Cir. 1991);' see also Villasenor-Cruz v. United States, 2017 WL 6627045 (E.D. Tex.—Sherman,
Oct. 3, 2017) (same).
B. Guilty Pleas
A guilty plea will be upheld on habeas review if the plea was entered into knowingly,
voluntarily, and intelligently. United States v. Hernandez, 234 F.3d 252, 254 (5th Cir. 2000).
Whether a plea is knowing turns on whether the defendant understood the consequences of his
plea; the defendant must have a full understanding of “what the plea connotes and of its
consequences.” Id. at 255. A defendant need only understand the direct consequences of the plea,
and need not be made aware of every consequence that—absent the guilty plea—would not
otherwise occur. Id. The consequences of a guilty plea, with respect to sentencing, means that the
defendant must know the maximum prison term and the fine for the charged offense. See United
States v. Guerra, 94 F.3d 989, 995 (5th Cir; 1996).
With respect to voluntariness, the question becomes whether the plea was induced by
threats or improper promises. Id.; see also U.S. v. Nunez, 539 F. App’x 502, 503 (5th Cir. 2013)
(“Whetheria plea is knowing looks to whether the defendant understands the direct consequences

4

APP '0 04

Case 6:20-cv-00559-JDK-JDL Document 5 Filed 06/10/21 Page 5 of 13 PagelD #: 27

of his plea, while voluntariness looks to, inter alia, whether the plea was induced by threats or
improper promises.”).
Firm declarations in open court—including a plea colloquy—carry a strong presumption
of verity. See United States v. Perez, 690 F. App’x 191, 192 (5th Cir. 2017) (Mem.) (“A
defendant’s solemn declarations in open court carry a strong presumption of truth.”) (quoting
Blackledge v. Allison, 431 U.S. 63, 74 (1977)). As a result, the movant faces the heavy burden of
proving that she is entitled to relief through overcoming the evidence of her own words. DeVille
v. Whitley, 21 F.3d 654, 659 (5th Cir. 1994); see also United States v. Raetzsch, 781 F.2d 1149,
1151 (5th Cir. 1986) (holding that there must be independent indicia of the likely merit of the
petitioner’s contentions; mere contradiction of the statements made at the guilty plea proceeding
will not suffice).
Furthermore, the Fifth Circuit has held that an ineffective assistance claim will survive an
appeal waiver where the alleged ineffectiveness directly affects the validity of the waiver or of the
plea itself. See United States v. White, 307 F.3d 336, 343 (5th Cir. 2002) (“We also note that a
defendant may always avoid a waiver on the limited grounds that the waiver of appeal itself was
tainted by the ineffective assistance of counsel.”).
IV. Discussion and Analysis
Pineda’s section 2255 motion should be denied for several reasons. Pineda wholly failed
to demonstrate a constitutional violation. His plethora of claims challenging the federal
criminalization of marijuana are without merit.
A. Pineda’s Guilty Plea and Ineffective Assistance of Counsel
While Pineda does not specifically challenge his guilty plea, one could argue—throughout
-/,

■

his articulation of his claims—that he is maintaining that he could not have entered a constitutional
APP C•05
5

Case 6:20-cv-00559-JDK-JDL Document 5 Filed 06/10/21 Page 6 of 13 PagelD #: 28

plea because his marijuana plants were constitutionally-protected property. Thus, in the interests
of thoroughness, this Court’s analysis must begin with Pineda’s guilty plea. The record reveals
that Pineda’s plea hearing was conducted on July 25, 2019. A review of Pineda’s guilty plea
hearing demonstrates that he entered his guilty plea knowingly, voluntarily, and intelligently. See
6:17-cr-039, Dkt. #268 (minute entry for plea proceedings).
Crucially, Pineda’s plea agreement contains a “Waiver of Right to Appeal or Otherwise
Challenge Sentence.” The waiver reads specifically as follows:
Except as otherwise provided in this paragraph, the defendant waives the right to appeal
the conviction, sentence, fine, order of restitution, or order of forfeiture in this case on all
grounds. The defendant further agrees not to contest the conviction, sentence, fine, order
of restitution, order of forfeiture in any post-conviction proceeding, including, but not
limited to, a proceeding under 28 U.S.C. § 2255. The defendant, however, reserves the
right to appeal the failure of the Court, after accepting this agreement, to impose a sentence
in accordance with the terms of this agreement. The defendant also reserves the right to
appeal or seek collateral review of a claim of ineffective assistance of counsel.
See 6:17-cr-39, Dkt. #269, pg. 6 (sealed plea agreement).
At first glance, then, it would appear that Pineda’s plea waiver precludes all of his section
2255 claims—particularly because he insists that he is not arguing that trial counsel was
ineffective. Although he insists that he is “disclaiming” any claim of ineffective assistance of
counsel, the Court finds that to the extent he argues that counsel was ineffective for those five
pieces of advice mentioned above, such claims are without merit. Counsel cannot be ineffective
for correctly advising his client. Strickland v. Washington, 466 U.S. 668 (1984); see also Loden
v. McCarty, 778 F.3d 484,494 (5th Cir. 2016) (explaining that in evaluating whether an attorney’s
conduct was deficient, the question becomes whether the attorney’s conduct fell below an
objective standard of reasonableness based on “prevailing norms of practice.”).
Additionally, none of Pineda’s claims attack the validity of his guilty plea—which is fatal
to his section 2255 motion. See United States v. Olsen, 845 F.3d 230, 231 (5th Cir. 2017) (“By
6

APP 006

Case 6:20-cv-00559-JDK-JDL Document 5 Filed 06/10/21 Page 7 of 13 PagelD #: 29

pleading guilty voluntarily and unconditionally, a criminal defendant waives his right to challenge
any nonjurisdictional defects in the criminal proceedings that occurred before the plea.”).
Nonetheless, even without any waiver, Pineda’s section 2255 claims are unpersuasive.
B. Merits Discussion
The theme of Pineda’s section 2255 is that marijuana is property, which is a constitutional
right. Because law enforcement searched and seized a plethora of marijuana plants—which he
characterizes as his property—Pineda insists his rights were violated under the Fourth and Fifth
Amendments. In other words, it appears that Pineda is challenging the legality and constitutionality
of federal law criminalizing the possession, use, distribution, or sale of marijuana.
Indeed, Pineda’s claims are cognizable under section 2255. While cognizable, a movant
who fails to raise these claims on direct appeal must show cause of his procedural default and
actual prejudice suffered as result of the alleged constitutional error. See United States v. Samuels,
59 F.3d 526, 528 (5th Cir. 1995) (“[0]n collateral attack, a defendant is limited to alleging errors
of a ‘constitutional or jurisdictional magnitude’.... Also, a defendant is required to show both
cause for the procedural default in not raising the issue on direct appeal and some form of actual
prejudice that he suffered as a result of the error.”).
Here, Pineda made no allegations—whatsoever—that provide cause for his failure to file a
direct appeal in his case or what prejudice he has suffered as a result of any alleged error.
Accordingly, Pineda’s section 2255 motion could be dismissed on those bases alone. See United
States v. Robinson, 2020 WL 2476556, at *2 (W.D. La. May 13,2020).
Even if Pineda could establish both cause and prejudice, his various constitutional
challenges would fail. Turning to Pineda’s Fourth Amendment argument, the Fourth Amendment
provides that “the right of the people to be secure in their persons, houses, papers, and effects,
APP 007
7

Case 6:20-cv-00559-JDK-JDL Document 5 Filed 06/10/21 Page 8 of 13 PagelD #: 30

against unreasonable searches and seizures, shall not be violated....” U.S. CONST., AMEND. IV.
The United States Supreme Court has historically recognized, “[Njo right is held more sacred, or
is more carefully guarded, by the common law, than the right of every individual to the possession
and control of his own person, free from all restraint or interference of others, unless by clear and
unquestionable authority of law.” Terry v. Ohio, 392 U.S. 1, 8-9 (1968) (internal citation omitted).
Persons arrested or detained without a probable cause finding could challenge such arrest/detention
by appealing to the Fourth Amendment’s protections “against unfounded invasions of liberty.”
See Gerstein v. Pugh, 420 U.S. 103,125, n.27 (1975).
However, “once a trial has occurred, the Fourth Amendment drops out: A person
challenging sufficiency of the evidence to support both a conviction and any ensuing incarceration
does so under the Due Process Clause.” See Manuel v. City ofJoliet, III, 137 S. Ct. 911, 920 &
n.8 (2017).
Pineda does not argue that law enforcement lacked probable cause to search or seize his
marijuana plants. Nor does he insist that his pre-trial process or his plea process were
constitutionally deficient. Conversely,'Pineda challenges the law under which he was convicted
and his subsequent imprisonment subject to that very law. See, e.g., Robinson, 2020 WL 2476556,
at *3. Accordingly, the Fourth Amendment provides no basis for Pineda’s claim. Id.
Turning to the crux of Pineda’s challenges, under 21 U.S.C. § 812, marijuana is a Schedule
I controlled substance. Under this meaning, “marijuana has no currently accepted medical use in
treatment, and there is a lack of accepted safety for use of the ... substance under medical
supervision.” See Wilson v. Lynch, 835 F.3d 1083, 1099 (9th Cir. 2016) (rejecting plaintiffs
assertion that “because a medical recommendation must be obtained to receive a marijuana registry
card, a holder of a registry card who uses marijuana has not used a controlled substance in a manner
APP 008
8

Case 6:20-cv-00559-JDK-JDL Document 5 Filed 06/10/21 Page 9 of 13 PagelD #: 31

other than as prescribed by a licensed physician,” and is thus a lawful user). There is no
fundamental right to possess, use, or distribute marijuana. See Raich v. Gonzales, 500 F.3d 850,
866 (9th Cir. 2007).
To the extent that Pineda highlights that certain states do not proscribe marijuana while
others do, such as Texas, this argument has been consistently rejected throughout federal courts
across the country. The reason is simple: Marijuana remains illegal under federal law and Pineda
need look no further than the Supremacy Clause of the United States Constitution. See, e.g.> United
States v. Canori, 737 F.3d 181, 184-85 (2d Cir. 2013) (“Marijuana remains illegal under federal
law, even if those states in which medical marijuana has been legalized.”); see also United States
v. Zachariah, 2018 WL 3017362, at *1 (W.D. Tex. June 15, 2018) (collecting cases and rejecting
defendant’s argument that in 29 out of 50. states persons can legally possess marijuana that federal
government has refused to preempt state laws in this arena, and that “this creates a state of affairs
where a person faces no prosecution in the state courts, but faces prosecution in the federal courts,
creating a violation of the Due Process Clause of the Fifth Amendment.”); United States v. White,
2016 WL 4473803, at *2 (W.D. Mo. Aug. 23, 2016) (“[E]ven if the [Missouri] Right to Farm
Amendment did decriminalize the manufacture of marijuana . . ., pursuant to the Supremacy
Clause of the United States Constitution, the Right to Farm Amendment would have no effect on
the validity and enforceability of federal statutes such as the Controlled Substances Act.”)
-a

(emphasis added).
Pineda challenges the fact that Congress has proscribed-marijuana. To the extent that
Pineda

maintains

that

Congress’

decision

to

proscribe

marijuana

or

by. making

possession/use/distribution of marijuana a federal crime, such claim is wholly without merit.
Traditional rational basis review applies to the Controlled Substance Act. Robinson, 2020 WL
APP C* 09
9

Case 6:20-cv-00559-JDK-JDL Document 5 Filed 06/10/21 Page 10 of 13 PagelD #: 32

2476556 at *4. Specifically, to Pineda’s case, rational basis review applies to Congress’s actions
in making the manufacture and possession with the intent to distribute marijuana a crime under
Schedule I of the Act. See Torres v. Chapman, 359 F. App’x 459,462 (5th Cir. 2009) (“In absence
of the showing of a fundamental right or membership in a suspect class, we employ only rationalbasis review.”). Government action—i.e., creating federal law criminalizing marijuana-

:omports

with substantive due process under the Fifth Amendment “if the action is rationally related to a
legitimate governmental interest.” Robinson, 2020 WL 2476556 at *4 (citing FMProp. Operating
Co. v. City ofAustin, 93 F.3d 167, 174 (5th Cir. 1996)). Rational basis is a notoriously deferential
standard.
Under the deferential standard of rational basis review, district courts have found that the
provisions on the criminalization of marijuana survive Fifth Amendment challenges. Specifically,
as highlighted by the Robinson court, the Western District of New York reasoned as follows:
Congress’s stated purpose for the passage of the [Controlled Substances Act] was public
health and safety. One need only review the [Drug Enforcement Agency’s] most recent
denial of a petition to reschedule to recognize the continuing public health and safety issues
associated with marijuana use—it “induces various psychoactive effects that can lead to
behavioral impairment,” Denial ofPetition to Initiate Proceeds to Reschedule Marijuana,
81 Fed. Reg. 53,767, 653,774 (Aug. 12, 2016); it can result in a “decrease IQ and general
neuropsychological performance” for those who commence using it as adolescents, id.; it
may result in adverse impacts on children who were subjected to prenatal marijuana
exposure, id. at 53,775; it “is the most commonly used illicit drug among Americans aged
12 years and older,” id. at 53,770; and its use can cause recurrent problems related to
family, school, and work, including repeated absences at work and neglect of family
obligations, id. at 53,783-84.
Even if there is a legitimate medical purpose associated with marijuana, under the rational
basis standard of review, there are numerous conceivable public health and safety grounds
that could justify Congress’s and the DEA’s continued regulation of marijuana as Schedule
I controlled substance. Under no reasonable view of the facts could it be concluded that it
is irrational for Congress to continue to regulate marijuana in the manner in which it has,
and for the DEA to continue to adhere to a Schedule I classification for marijuana.

APP C-10
10

Case 6:20-cv-00559-JDK-JDL Document 5 Filed 06/10/21 Page 11 of 13 PagelD #: 33.

Robinson, 2020 2476556 at *4 (citing and quoting United States v. Green, 222 F.Supp.3d 267,279
(W.D.N.Y. 2016)).
Here, Pineda pleaded guilty to manufacture and possession, with the intent to manufacture
and distribute, 100 or more marijuana plants and aiding and abetting. Federal courts have
consistently rejected claims such as those raised by Pineda. The federal prohibition against
marijuana—through the Controlled Substances Act—is a valid federal law prohibiting Pineda’s
conduct. Because his conviction and sentence are valid, the Fourth and Fifth Amendments provide
no relief.
Y. Conclusion
Pineda pleaded guilty to manufacture and possession, with the intent to manufacture and
distribute, 100 or more marijuana plants and aiding and abetting. While he insists that there is no
constitutional amendment prohibiting marijuana and even if there are legitimate medical
justifications for the use of marijuana, the bottom line is that Pineda violated a valid and
constitutional federal law. He pleaded guilty to doing so. For the above-stated reasons, his section
2255 motion should be denied.
VI. Certificate of Appealability
An appeal may not be taken to the court of appeals from a final order in a section 2255
proceeding “unless a circuit justice or judge issues a certificate of appealability.” 28 U.S.C. §
2253(c)(1)(A). Although Movant has not yet filed a notice of appeal, the Court may address
whether he would be entitled to a certificate of appealability. See Alexander v. Johnson, 211 F.3d
895, 898 (5th Cir. 2000) (explaining that a district court may sua sponte rule on a certificate of
appealability because “the district court that denies a [movant] relief is in the best position to

11

APP C-ll

Case 6:20-cv-00559-JDK-JDL Document 5 Filed 06/10/21 Page 12 of 13 PagelD #: 34 .

determine whether the [movant] has made a substantial showing of a denial of a constitutional
right on the issues before the court.”).
A certificate of appealability may issue only if a movant has made a substantial showing
of the denial of a constitutional right. 28 U.S.C. § 2253(c)(2). To make a substantial showing, the
movant need only show that “jurists of reason could disagree with the district court’s resolution of
his constitutional claims or that jurists could conclude the issues presented are adequate to deserve
encouragement to proceed further.” Miller-El v. Cockrell, 537 U.S. 322,327 (2003). The Supreme
Court recently emphasized that the COA inquiry “is not coextensive with merits analysis” and
“should be decided without ‘full consideration of the factual or legal bases adduced in support of
the claims.”’ Buck, 137 S. Ct. 773 (quoting Miller-El, 537 U.S. at 336). Moreover, “[wjhen the
district court denied relief on procedural grounds, the [movant] seeking a COA must further show
that ‘jurists of reason would find it debatable whether the district court was correct in its procedural
ruling.’” Rhoades v. Davis, 852 F.3d 422, 427 (5th Cir. 2017) (quoting Gonzalez v. Thaler, 565
U.S. 134,140-41 (2012)).
Here, Movant Pineda failed to present a substantial showing of a denial of a constitutional
right or that the issues he has presented are debatable among jurists of reason. He also failed to
demonstrate that a court could resolve the issues in a different manner or that questions exist
warranting further proceedings. Accordingly, he is not entitled to a certificate of appealability.
RECOMMENDATION
It is therefore recommended that the above-styled section 2255 motion be denied, the case
be dismissed, with prejudice, and that Movant be denied a certificate of appealability sua sponte.
Within fourteen (14) days after receipt of the Magistrate Judge’s Report, any party may
serve and file written objections to the findings and recommendations contained in the Report.
APP C*12
12

Case 6:20-cv-00559-JDK-JDL Documents Filed 06/10/21 Page 13 of 13 PagelD#: 35

A party’s failure to file written objections to the findings, conclusions, and
recommendations contained in this Report within fourteen days after being served with a copy
shall bar that party from de novo review by the district judge of those findings, conclusions and
recommendations and, except on grounds of plain error, from appellate review of unobjected-to
factual findings and legal conclusions accepted and adopted by the district court. Douglass v.
United Servs. Auto. Ass ’n, 79 F.3d 1415, 1430 (5th Cir. 1996) (en banc).

So ORDERED and SIGNED this 10th day of June, 2021.

UNITED STATES MAGISTRATE JUDGE

APP 013
13

